No. 19-416
In the

Supreme Court of the United States
Nestlé USA, Inc.,
Petitioner,
v.
John Doe I, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF OF THE CATO INSTITUTE AS
AMICUS CURIAE IN SUPPORT OF
PETITIONER
Ilya Shapiro
Cato Institute
1000 Mass. Avenue, N.W.
Washington, DC 20001
(202) 842-0200

Owen C. Pell
Counsel of Record
Claire DeLelle
Bryan A. Merryman
Steven A. Levy
White & Case LLP
1221 Avenue of the Americas
New York, NY 10020
(212) 819-8200
opell@whitecase.com

Counsel for Amicus Curiae
292203

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the judiciary has the authority under the
Alien Tort Statute, 28 U.S.C. § 1350, to impose liability
on domestic corporations.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.	THE NINTH CIRCUIT’S DECISION
CANNOT BE RECONCILED WITH
THIS COURT ’ S LIMITS ON THE
JURISDICTIONAL SCOPE OF THE
ALIEN TORT STATUTE . . . . . . . . . . . . . . . . . . 5
A.	THIS COURT HAS DEVELOPED
A R I G O R O U S TEST F O R
E VA LUA T I NG A SSE R T ION S
OF FEDERA L JURISDICTION
UNDER THE ATS . . . . . . . . . . . . . . . . . . . . 6
B. BY FAILING TO APPLY SOSA AND
JESNER, THE NINTH CIRCUIT
DR A M ATICA LLY EX PA NDED
FEDERAL JURISDICTION. . . . . . . . . . . . 9

iii
Table of Contents
Page
II. BY SU M M A RILY A PPLY ING ITS
PRE- JESNER PRECEDENT, THE
NINTH CIRCUIT CREATED A DIRECT
CON FLICT W I TH JESNER A N D
SOSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Doe I v. Nestle USA, Inc.,
766 F.3d 1013 (9th Cir. 2014)  . . . . . . . . . . . . . . . .  14, 15
Doe v. Nestle, S.A.,
906 F.3d 1120 (9th Cir. 2018), modified in other
respects by 929 F.3d 623 (9th Cir. 2019) . . . . . . 5, 9, 15
Doe VIII v. Exxon Mobil Corp.,
654 F.3d 11 (D.C. Cir. 2011), vacated on other
grounds by Doe VIII v. Exxon Mobil Corp.,
527 F. App’x 7 (D.C. Cir. 2013) . . . . . . . . . . . . . . . . . . 14
Flomo v. Firestone Nat. Rubber Co.,
643 F.3d 1013 (7th Cir. 2011)  . . . . . . . . . . . . . . . . . . . 14
Jesner v. Arab Bank, PLC,
138 S. Ct. 1386 (2018) . . . . . . . . . . . . . . . . . . . . . passim
Kiobel v. Royal Dutch Petroleum Co.,
621 F.3d 111 (2d Cir. 2010) . . . . . . . . . . . . . . .  11, 14, 18
Romero v. Drummond Co.,
552 F.3d 1303 (11th Cir. 2008) . . . . . . . . . . . . . . . . . . 14
Sarei v. Rio Tinto, PLC,
671 F.3d 736 (9th Cir. 2011), vacated on
other grounds by Rio Tinto PLC v. Sarei,
569 U.S. 945 (2013)  . . . . . . . . . . . . . . . . . .  14, 15, 16, 19

v
Cited Authorities
Page
Sosa v. Alvarez-Machain,
542 U.S. 692 (2004) . . . . . . . . . . . . . . . . . . . . . . . passim
The Nurnberg Trial (United States v. Goering),
6 F.R.D. 69 (Int’l Military Trib.
at Nuremberg 1946)  . . . . . . . . . . . . . . . . . . . . . . . . . . 11
The Paquete Habana,
175 U.S. 677 (1900)  . . . . . . . . . . . . . . . . . . . . . . . .  10, 11
Statutes
28 U.S.C. § 1350  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5
Torture Victim Prevention Act of 1991 . . . . . . . . . . . .  8-9
OTHER AUTHORITIES
Caroline Kaeb, The Shifting Sands of Corporate
Liability Under International Criminal Law,
49 The Geo. Wash. Int’l. L. Rev. 351 (2016) . . . . . . . 19
Ca se Co n cer nin g th e Ap plicati o n of th e
Convention on the Prevention and Punishment
of the Cr ime of Genocide (Bosnia and
Herzegovina v. Serbia and Montenegro),
Judgment, 2007 I.C.J. 43 (Feb. 26) . . . . . . . . . . . . . . 16

vi
Cited Authorities
Page
Commentaries on the Convention on Combating
Br iber y of Foreig n P ublic Off icia ls in
International Business Transactions, adopted by
the Negotiating Conference on Nov. 21, 1997 . . . . . 18
Convention Against Transnational Organized
Crime, Nov. 15, 2000, S. Treaty Doc. 108-16,
2225 U.N.T.S. 209 . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Cristina de Maglie, Models of Corporate Criminal
Liability in Comparative Law, 4 Wash.
U. Global Stud. L. Rev. 547 (2005)  . . . . . . . . . . . 11, 12
Milena Sterio, Corporate Liability for Human
Rights Violations: The Future of the Alien Tort
Claims Act, 50 Case W. Res. J. Int’l. L. 127
(2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
OECD Convention on Combating Bribery of
Foreign Public Officials in International
Business Transactions, 2802 U.N.T.S. 225  . . . . . . .  17
Rome Statute of the International Criminal
	Court, Jul. 1, 2002, 2187 U.N.T.S. 90  . . . . . . . . . . . . . 8
Statute of the International Court of Justice,
Oct. 24, 1945 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

1
INTEREST OF AMICUS CURIAE
The Cato Institute was established in 1977 as a
nonpartisan public policy research foundation dedicated
to advancing the principles of individual liberty, free
markets, and limited government. Cato’s Center for
Constitutional Studies was established in 1989 to help
restore the principles of limited constitutional government
that are the foundation of liberty. Toward those ends, Cato
publishes books, studies, and the annual Cato Supreme
Court Review, conducts conferences, and files amicus
briefs. This case concerns Cato because it raises vital
questions about the role of federal judges in defining the
scope of federal jurisdiction and the manner in which they
interpret international law to define that scope.1
SUMMARY OF ARGUMENT
The decision below held that a U.S. company can be
sued under the Alien Tort Statute, 28 U.S.C. § 1350 (the
“ATS”) for alleged crimes under international law. That
decision, however, is irreconcilable with either prong of
the rigorous two-step analysis mandated by this Court in
Sosa v. Alvarez-Machain, 542 U.S. 692 (2004) and Jesner
v. Arab Bank, PLC, 138 S. Ct. 1386 (2018). While Jesner
1. No counsel for a party authored this brief in whole or
in part, and no party or counsel for a party made a monetary
contribution intended to fund the preparation or submission of
this brief. No one other than amicus curiae or its members made
a monetary contribution to the preparation or submission of this
brief. Counsel for the parties have consented to the filing of this
brief. In addition, counsel to the parties have informed counsel
for amicus that letters from the parties consenting to the filing
of amicus briefs will be filed with the Clerk of the Court.

2
held that the ATS could not support claims against nonU.S. corporations for alleged violations of international
law, the rationales underlying that holding apply equally
to domestic corporations. In concluding otherwise, the
Ninth Circuit decision raises a substantial federal question
because it impermissibly expands the scope of federal
jurisdiction under the ATS.
As a purely jurisdictional statute, this Court has
instructed that the ATS implicates serious separation-ofpowers and foreign-relations concerns, and accordingly,
courts should be vigilant to read the ATS narrowly. Under
Sosa, a plaintiff first must show that the alleged violation of
international law involves a norm that is specific, universal,
and obligatory under international law. Even if this
threshold burden is met, the court must decide whether
recognizing a particular claim is a proper exercise of
judicial discretion or whether the political branches must
grant specific authority before liability is imposed.
Underscoring the narrowness of this two-part test,
the Court stressed that federal courts should require
ATS claims “based on the present-day law of nations to
rest on a norm of international character accepted by the
civilized world and defined with a specificity comparable
to the features of the 18th-century paradigms we
have recognized.” Sosa, 542 U.S. at 725. Applying this
specificity test, Sosa held that “arbitrary arrest” had not
reached the level of a norm under international law, and
that the implications of recognizing this type of claim
under the ATS “would be breathtaking.” Id. at 735-36.
Jesner then applied Sosa’s specificity test to determine
who may be subject to a particular claim for a violation
of the law of nations. Thus, notwithstanding the clarity
as to the underlying crimes asserted, Jesner recognized

3
that (i) plaintiffs had not shown a specific, universal and
obligatory international law norm for imposing liability on
non-U.S. corporations for acts violating international law;
(ii) there was no congressional imprimatur for extending
ATS jurisdiction to include non-U.S. companies accused
of crimes under international law; and (iii) extending
federal jurisdiction to include claims against non-U.S.
corporations would have serious and negative foreignpolicy implications.
The Ninth Circuit ignored the rigorous analysis of
Sosa and Jesner, creating substantial federal questions
meriting certiorari. First, Jesner confirms that when Sosa
referred to the “specificity comparable to the features of
the 18th-century paradigms” it meant a specificity going
beyond the elements of the crime at issue. In assessing
ATS jurisdiction, courts must thus apply the same rigor
in assessing who is a proper party under international
law as in determining the elements of a specific crime
under international law. Here, the Ninth Circuit ignored
that individual liability for violations of international
human rights law has consistently been limited to natural
persons, and that the nations of the world expressly
refused to extend that liability to corporations when
given the opportunity. As also ignored below, not all
nations of the world derive their corporate law from the
Anglo-American legal system. Indeed, nations disagree
strongly on what corporate liability looks like across a
broad range of issues that have direct bearing on how any
criminal claim under international law might apply to a
corporate entity. Sosa and Jesner teach that it is for the
executive and legislative branches to determine how the
United States will navigate these complex differences—
which have significant legal, economic, and foreign-policy
consequences.

4
Second, Jesner shows how the specificity requirement
relates to and supports Sosa’s expressed concern that the
federal courts not extend the jurisdictional reach of the
ATS absent an affirmative act of Congress. Even after
recognizing that there was no universal norm supporting
corporate liability, the plurality continued its analysis
with respect to what Congress affirmatively had done in
enacting—and limiting—the TVPA under the ATS. 138 S.
Ct. at 1403-06. As in Sosa, the Jesner majority also then
considered the negative implications for expanding federal
jurisdiction in ways that created significant foreign-policy
issues. Id. at 1406-07.
The Ninth Circuit ignored all of this. Rather than
identifying any affirmative congressional support for
its conclusion, the court below turned Sosa on its head
by concluding that the absence of legislative evidence
was dispositive. Put another way, the Ninth Circuit
never considered why, absent an express affirmative act
of Congress, international law should be different for
domestic corporations as opposed to foreign corporations.
The Ninth Circuit also thereby created a distinction that
exists nowhere in international law and which creates real
foreign-policy implications for U.S. companies operating
abroad: U.S. companies can now be sued under the ATS
while non-U.S. companies—even companies related to
U.S. companies—cannot be sued for the exact same
claims. The Ninth Circuit nowhere considered the logic
or implications of its holding and thereby dramatically
broadened the scope of ATS jurisdiction.
Certiorari also is merited because, before Jesner, four
circuit courts—including the Ninth Circuit—had held
that the ATS allows federal courts to hear claims against

5
corporations for alleged crimes under international law.
The Second Circuit, however, had held otherwise—finding
that claims for crimes under international law could not
be asserted against corporations.
Jesner should have resolved this circuit split
conclusively. Specifically, the logic of its holdings has
equal application to any corporation, because either (i) the
reference point is liability under international law—not
the domestic law of any one nation; and/or (ii) the foreignpolicy implications of recognizing the claims at issue are
magnified by attempting to distinguish between non-U.S.
and U.S. companies. Yet, the Ninth Circuit’s decision
serves only to render Jesner’s guidance a nullity and
worsen the prior split by creating an artificial distinction
between corporate entities based on corporate citizenship.
This Court’s review therefore is urgently required to
prevent the post-Jesner holding below from unwinding
the analysis applied in Sosa and Jesner.
ARGUMENT
I.

THE NINTH CIRCUIT’S DECISION CANNOT BE
RECONCILED WITH THIS COURT’S LIMITS ON
THE JURISDICTIONAL SCOPE OF THE ALIEN
TORT STATUTE

The decision below held that a U.S. company can
be sued under the Alien Tort Statute, 28 U.S.C. § 1350
(the “ATS”) for alleged crimes under international law.
Doe v. Nestle, S.A., 906 F.3d 1120, 1124 (9th Cir. 2018),
modified in other respects by 929 F.3d 623 (9th Cir. 2019)
(denying defendants’ petition for a panel rehearing or
rehearing en banc). The Ninth Circuit’s decision, however,

6
is irreconcilable with the reasoning in Jesner v. Arab
Bank, PLC, 138 S. Ct. 1386 (2018). While Jesner held
that the ATS could not support claims against non-U.S.
corporations for alleged violations of international law, the
rationales used apply equally to domestic corporations.
In concluding otherwise, the decision below raises a
substantial federal question because it impermissibly
expands the scope of federal jurisdiction under the ATS
and ignores both prongs of the rigorous analysis this
Court mandated in Sosa v. Alvarez-Machain, 542 U.S.
692 (2004) and Jesner.
A.

T HIS COU RT H A S DEV ELOPED A
RIGOROUS T EST FOR EVA LUATI NG
ASSERTIONS OF FEDERAL JURISDICTION
UNDER THE ATS.

The ATS provides for federal jurisdiction as to “any
civil action by an alien for a tort only, committed in
violation of the law of nations or a treaty of the United
States.” In Sosa, the Court held that the ATS is “strictly
jurisdictional” and does not by its terms define the content
of causes of action under international law. 542 U.S. at
713. As reaffirmed in Jesner, the ATS must be interpreted
narrowly to avoid the impermissible judicial expansion of
federal jurisdiction absent an act of Congress, including
because that expansion necessarily implicates serious
separation-of-powers and foreign-policy concerns. Jesner,
138 S. Ct. at 1398 (citing Sosa, 542 U.S. at 727-28). For
these reasons, this Court has admonished that ATS claims
must be “subject to vigilant doorkeeping.” Id. (quoting
Sosa, 542 U.S. at 729).
Before recognizing a cause of action under international

7
law, federal courts must apply Sosa’s rigorous twopart test. A plaintiff first must demonstrate that the
alleged violation of the law of nations involves a norm
under international law that is “specific, universal, and
obligatory.” 542 U.S. at 732 (internal quotation marks
omitted). If that initial burden is met, the court then
must determine whether recognizing a particular claim
under the ATS is a proper exercise of judicial discretion
or whether the political branches must grant specific
authority before finding jurisdiction. Id. at 732-33 & nn.
20-21. Underscoring the narrowness of this test, the Court
stressed that courts should require ATS claims “based
on the present-day law of nations to rest on a norm of
international character accepted by the civilized world
and defined with a specificity comparable to the features
of the 18th-century paradigms we have recognized.” Id.
at 725. Applying this test in Sosa, the Court held that
“arbitrary arrest” had not reached the level of a norm
under international law. Id. at 735-36. The Court also
observed that the implications of recognizing this claim
“would be breathtaking.” Id. at 736. It “would support a
cause of action in federal court for any arrest, anywhere
in the world, unauthorized by the law of the jurisdiction
in which it took place, and would create a cause of action
for any seizure of an alien in violation of the Fourth
Amendment.” Id.
In Jesner, the Court applied Sosa’s specificity test
to determine who may be subject to a particular claim
for a violation of the law of nations. Accordingly, and
notwithstanding the clarity as to the underlying crimes
asserted in that case, the plurality examined whether
there is a specific, universal, and obligatory international
law norm imposing liability on corporations—in Jesner, a

8
non-U.S. banking company—for acts of their employees
that contravene fundamental human rights. See id. at
1399-1402.
After noting that defendants prosecuted under the
Nuremberg Charter were limited to natural persons, the
plurality recognized that subsequent international human
rights tribunals had continued that limitation. Id. at 140001. Most importantly, the Court observed that the nations
of the world, in fashioning the Rome Statute delineating
the International Criminal Court, limited the tribunal’s
jurisdiction to natural persons, including by expressly
rejecting a proposal that would have granted the tribunal
jurisdiction over corporations. Id. at 1401. The reference to
the Rome Statute is particularly important here because
that treaty encompasses crimes that are at issue in this
case, i.e., crimes against humanity. Rome Statute of the
International Criminal Court, art. 7, Jul. 1, 2002, , 2187
U.N.T.S. 90, 93-94. The plurality concluded that these
authorities, among others, established the “international
community’s conscious decision to limit the authority of
these international tribunals to natural persons” and
this “counsel[ed] against a broad holding that there is
a specific, universal, and obligatory norm of corporate
liability under currently prevailing international law.”
Jesner, 138 S. Ct. at 1401.
Given the constitutional implications of interpreting
the ATS in a way that expands federal jurisdiction, the
plurality next considered whether any analogous statutes
supported extending ATS jurisdiction to include non-U.S.
corporations accused of crimes under international law.
Id. at 1403-05. The plurality found that its analysis of
the obvious analog, the Torture Victim Prevention Act

9
(“TVPA”) under the ATS, was all but dispositive of the
question. 138 S. Ct. at 1404. The TVPA is the only cause
of action created by Congress under the ATS. In creating
a remedy for torture in violation of international law,
Congress “took care to delineate the TVPA’s boundaries,”
and those boundaries excluded liability for corporations.
Id. at 1403-04. The plurality concluded that the TVPA’s
narrow scope illustrated the foreign-policy concerns that
required the courts to “draw a careful balance in defining
the scope of actions under the ATS.” Id. at 1404. Similar to
what the Court observed in Sosa, the plurality then noted
the implications of broadly recognizing corporate liability
for crimes under the law of nations, including that doing so
would hinder global investment in developing economies
where American corporations could be subject to massive
liability for the acts of their employees and subsidiaries
abroad. Id. at 1405-06.
The decision below eschewed this rigorous two-part
test in simply applying a pre-Jesner ruling by the Ninth
Circuit that had allowed corporations to be sued under
the ATS for claims arising under international law. That
concern is no less acute in this case, where the court
below interpreted international law to allow suits against
domestic corporations by foreign plaintiffs for alleged
injuries occurring entirely abroad. Doe, 906 F.3d at 1124.
B. BY FAILING TO APPLY SOSA AND JESNER,
THE NINTH CIRCUIT DRAMATICALLY
EXPANDED FEDERAL JURISDICTION.
Jesner highlighted in two ways the importance of
Sosa’s specificity requirement in ensuring that the federal
courts are vigilant doorkeepers of federal jurisdiction
under the ATS. The Ninth Circuit ignored both prongs

10
of Sosa’s holding in its analysis.
First, Jesner shows that in assessing potential claims
under the ATS, federal courts must apply the same rigor
in assessing who is a proper party under universally
accepted international law as in determining the elements
of a specific crime. Jesner confirms that when Sosa
referred to the “specificity comparable to the features of
the 18th-century paradigms,” 542 U.S. at 725, it meant
a specificity going beyond the elements of the crime at
issue. It means that, as part of vigilant doorkeeping,
this Court requires specificity as to more than the bare
elements of a purported international law claim. Rather,
the Court requires developed normative clarity on the
underlying supporting structure of the international law
claim asserted.
That this type of specificity existed in the 18th century
is confirmed by the law of piracy and prize—two of the
most prevalent 18th-century paradigms of international
law when the ATS was enacted—and is shown in decisions
like The Paquete Habana, 175 U.S. 677 (1900). There, this
Court looked to the international law of prize for its rule of
decision in an admiralty case where there was no federal
common law rule. Id. at 686. The depth of the Court’s
decision shows the level of specificity that delineated a
well-recognized 18th-century paradigm of international
law: The law of prize had developed remarkably well
beyond the elements of the claim itself. Id. at 686-712
(parsing multiple sources of international law regarding
detailed aspects of claim at issue). In The Paquete
Habana, the precise rules of prize law encompassed
differences relating to the purpose of the vessel seized
and even whether the fish in a ship’s hold were being

11
transported to port alive or dead. Id. at 713-14.
Applying that logic here highlights the significant
federal question created by the Ninth Circuit’s truncated
analysis below. Since at least the Nuremberg trials,
“the principle of individual liability for violations of
international law has been limited to natural persons
. . . because the moral responsibility for a crime so heinous
and unbounded as to rise to the level of an ‘international
crime’ has rested solely with the individual men and
women who have perpetrated it.” Kiobel v. Royal Dutch
Petroleum Co., 621 F.3d 111, 119 (2d Cir. 2010). As
explained at Nuremberg: “Crimes against international
law are committed by men, not by abstract entities, and
only by punishing individuals who commit such crimes
can the provisions of international law be enforced.” The
Nurnberg Trial (United States v. Goering), 6 F.R.D.
69, 110 (Int’l Military Trib. at Nuremberg 1946). Since
then, no international tribunal considering human rights
claims—including claims like those asserted here—has
deviated from that principle.
As also ignored by the Ninth Circuit, not all nations
of the world derive their corporate law from the AngloAmerican legal system. Nations disagree strongly on
what corporate liability looks like across a broad range
of issues that have direct bearing on how any criminal
claim under international law might apply to a corporate
entity. For example, there are significant differences
around whether corporations may be liable for all crimes
or only specifically enumerated crimes. See, e.g., Cristina
de Maglie, Models of Corporate Criminal Liability in
Comparative Law, 4 Wash. U. Global Stud. L. Rev. 547,
552 (2005) (comparing Australia (all crimes) to France

12
(limited enumerated crimes)). Thus, corporations are not
routinely treated in the same way as natural persons. This
divergence grows when considering who can incur liability
for the corporation as a whole.
The U.S. model fully embraces the respondeat
superior approach, wherein a corporation is liable if (i) an
agent, (ii) acting within the scope of his/her employment,
(iii) with the intent to benefit the corporation violates the
law. See id. at 553. That is not the rule in other countries,
such as France, where only acts committed by key
corporate officers are attributable to the corporate person.
Id. at 554. Even the definition of corporate mens rea lacks
cohesion. Some jurisdictions, including the United States,
consider the “corporate culture” when attributing intent
to a corporation’s wrongdoing. Id. at 558. Other nations,
however, look only to the mindset of the key actors whose
actions can be attributed to the corporation at all. Id. at
556-57.
It was, no doubt, these types of issues that led to
the rejection of the Rome Statute provision on corporate
liability cited in Jesner. See Jesner, 138 S. Ct. at 1401.
More importantly, these issues highlight what was
recognized in Sosa and Jesner, that it is for the executive
and legislative branches to determine how the United
States will navigate these differences. See Jesner, 138 S.
Ct. at 1407-08; Sosa, 542 U.S. at 727. These are complex
issues, with significant legal, economic, and foreign-policy
consequences, and it is not for the federal courts to expand
their jurisdictional reach without rigorously applying the
analysis applied in Sosa and Jesner. That is something the
Ninth Circuit failed to do, with consequences that reach
any U.S. company operating abroad.

13
Second, Jesner shows how the specificity requirement
relates to and supports Sosa’s expressed concern that
courts refrain from extending the jurisdictional reach
of the ATS absent an affirmative act of Congress. Sosa’s
concern over congressional action was driven by the
separation-of-powers and foreign-policy concerns inherent
in discovering and applying international law in U.S.
courts. Thus, in addition to noting the “breathtaking”
implications of broadly recognizing claims for arbitrary
arrest under international law, the Court observed that
“the potential implications for the foreign relations of the
United States of recognizing such causes should make
courts particularly wary of impinging on the discretion
of the Legislative and Executive Branches in managing
foreign affairs.” Sosa, 542 U.S. at 727, 736. Accordingly,
the Court held that “we have no congressional mandate
to seek out and define new and debatable violations of the
law of nations, and modern indications of congressional
understanding of the judicial role in the field have not
affirmatively encouraged greater judicial creativity.” Id.
at 728.
Similarly, in Jesner, even after finding that there
was no universal norm supporting corporate liability,
the plurality continued its analysis with respect to what
Congress had done in enacting—and limiting—the TVPA.
Jesner, 138 S. Ct. at 1403-04. As in Sosa, the majority also
then considered the negative implications of expanding
federal jurisdiction in ways that created significant
foreign-policy issues. Id. at 1406-07; see also Sosa, 542
U.S. at 727 (“[T]he potential implications for the foreign
relations of the United States of recognizing such causes
should make courts particularly wary of impinging on the
discretion of the Legislative and Executive Branches in

14
managing foreign affairs.”). The Ninth Circuit ignored
all of this, thereby creating a distinction that exists
nowhere in international law and creates real foreignpolicy issues with respect to U.S. companies operating
abroad. U.S. companies can now be sued in some federal
courts under the ATS, while non-U.S. companies – even
those related to U.S. cmpanies – cannot be sued in any
federal court for the exact same claims. The Ninth Circuit
nowhere considered the logic or implications of its holding
and thereby dramatically broadened the scope of ATS
jurisdiction.
II. BY SUMMARILY APPLYING ITS PRE-JESNER
PRECEDENT, THE NINTH CIRCUIT CREATED
A DIRECT CONFLICT WITH JESNER AND SOSA
Prior to Jesner, four circuit courts had held that
the ATS allows federal courts to hear claims against
corporations for alleged crimes under international law.
See, e.g., Doe I v. Nestle USA, Inc. (“Nestle I”), 766 F.3d
1013, 1022 (9th Cir. 2014) (applying Sarei v. Rio Tinto,
PLC, 671 F.3d 736, 748 (9th Cir. 2011) (en banc), vacated
on other grounds by Rio Tinto PLC v. Sarei, 569 U.S.
945 (2013)); Doe VIII v. Exxon Mobil Corp., 654 F.3d 11,
15 (D.C. Cir. 2011), vacated on other grounds by Doe VIII
v. Exxon Mobil Corp., 527 F. App’x 7 (D.C. Cir. 2013);
Flomo v. Firestone Nat. Rubber Co., 643 F.3d 1013, 1025
(7th Cir. 2011); Romero v. Drummond Co., 552 F.3d
1303, 1315 (11th Cir. 2008). The Second Circuit, however,
had held otherwise—finding that claims for crimes
under international law could not be asserted against
corporations. Kiobel v. Royal Dutch Petroleum Co., 621
F.3d 111, 149 (2d Cir. 2010).

15
Jesner should have resolved this circuit split.
Specifically, the logic of its holdings has equal application
to any corporation, non-U.S. or U.S. because either (i) the
reference point is liability under international law—not
the national law of any one nation; and/or (ii) the foreignpolicy implications of recognizing the claims at issue are
magnified by attempting to distinguish between non-U.S.
and U.S. companies. Yet, the Ninth Circuit’s decision
serves only to render Jesner’s guidance a nullity and
worsen the prior split by creating an artificial distinction
between corporate entities based on corporate citizenship.
Without any analysis of Jesner, the Ninth Circuit simply
reaffirmed in its entirety the holding in Nestle I, which
relied on and applied Sarei, save for the holding that the
ATS extended to non-U.S. corporations. Doe v. Nestle,
S.A., 906 F.3d 1120, 1124 (9th Cir. 2018) (stating without
discussion that “Jesner did not eliminate all corporate
liability under the ATS”), modified in other respects by
929 F.3d 623 (9th Cir. 2019) (denying defendants’ petition
for a panel rehearing or rehearing en banc).
But this Court’s rigorous analysis of corporate liability
in Jesner required that the Ninth Circuit reexamine
its holding in Sarei to reconsider the status of claims
against domestic corporations. Had the lower court done
so, it would have been compelled to conclude that Jesner
left no room to hold that the ATS could accommodate a
distinction between U.S. and non-U.S. corporations, and
that no aspect of Sarei remains good law. Indeed, this
was precisely the argument of the five circuit judges
dissenting below, who would have held that Sarei was no
longer good law because, under either prong of the Sosa
test as applied in Jesner, “corporations are no longer
viable ATS defendants.” Doe v. Nestle S.A., 929 F.3d 623,
627 (9th Cir. 2019).

16
First, Sarei made no mention of the Rome Statute and
the import of the nations of the world rejecting a universal
norm as to corporate liability in a treaty codifying the very
crimes under international human rights law that are at
issue here. Instead, in Sarei, the Ninth Circuit relied on a
case decided by the International Court of Justice (“ICJ”)
to discover a universal rule allowing corporate liability
for crimes under international law—a reliance that was
flawed. See Sarei, 671 F.3d at 759-60. As an initial matter,
by the very U.N. legislation that created it, the ICJ itself
does not treat its rulings as having binding force under
international law outside of any given case. See Statute
of the International Court of Justice, art. 59, Oct. 24,
1945. Thus, as compared to the actions of all U.N. states
in formulating the Rome Statute, which are indicative of
what the nations of the world consider universal obligatory
norms, the ICJ does not view its rulings as creating
universal norms under international law.
More importantly, the Ninth Circuit in Sarei relied
upon an ICJ ruling that found only that “a state may be
responsible for genocide committed by groups or persons
whose actions are attributable to states.” Sarei, 671 F.3d
at 760 (quoting Case Concerning the Application of the
Convention on the Prevention and Punishment of the
Crime of Genocide (Bosnia and Herzegovina v. Serbia
and Montenegro), Judgment, 2007 I.C.J. 43 (Feb. 26)).
But the question in Bosnia and Herzegovina concerned
whether certain amorphous groups or persons comprised
individuals whose acts could be attributed to a state. Id.
at 161 (“[T]he Court will need to ascertain whether acts
of the kind referred to in Article III of the Convention,
other than genocide itself, were committed by persons or
organs whose conduct is attributable to the Respondent

17
under [the] rules of State responsibility . . . .”). The ICJ
said nothing about, nor even considered, the liability of
synthetic persons – like corporations – for crimes under
international law.
In ignoring Jesner’s analysis, the Ninth Circuit also
overlooked that the nations of the world are capable
of explicitly addressing the reach of international law,
including when that reach extends to corporations. For
example, in contrast to the Rome Statute (which rejected
any form of corporate liability), the Convention Against
Transnational Organized Crime allows for liability as
to non-natural persons such as corporations. But what
is striking is that the treaty expressly recognizes that
corporate liability is not uniform, and will be tailored to
the specific laws of each State Party. Convention Against
Transnational Organized Crime, Nov. 15, 2000, S. Treaty
Doc. 108-16, 2225 U.N.T.S. 209. Article 10 states that
each State Party shall adopt measures regarding “legal
persons” as are “consistent with its legal principles” to
combat racketeering crimes delineated in the treaty. These
measures, again subject to the legal principles of any given
State Party, may be criminal, civil or administrative—
and are “without prejudice to the criminal liability of the
natural persons who have committed the [delineated]
offences.” Id. art. 10(3).
Similarly, Article 2 of the OECD Convention on
Combating Bribery of Foreign Public Officials in
International Business Transactions, 2802 U.N.T.S.
225, 230, done Dec. 17, 1997, S. Treaty Doc. No. 105-43,
provides that each State “shall take such measures as
may be necessary, in accordance with its legal principles,
to establish the liability of legal persons for the bribery

18
of a foreign public official.” The commentaries to the
treaty then drive home the point that corporate liability
under this treaty may not be uniform nor universal by
stating: “In the event that, under the legal system of a
Party, criminal responsibility is not applicable to legal
persons, that Party shall not be required to establish
such criminal responsibility.” Commentaries on the
Convention on Combating Bribery of Foreign Public
Officials in International Business Transactions, adopted
by the Negotiating Conference on Nov. 21, 1997, para. 20. 2
2. As the Second Circuit correctly understood, while these
treaties might “suggest a trend towards imposing corporate
liability in some special contexts,” they cannot—especially in
light of the Rome Statute—establish that corporate liability has
been recognized as a universal and obligatory norm under the
customary international law of human rights. See Kiobel, 621 F.3d
111, 141 (2d Cir. 2010) (emphasis in original). Kiobel also correctly
recognized that writings on international law confirm that there
is no norm of corporate liability under international human rights
law that is specific, universal, and obligatory. See, e.g., Milena
Sterio, Corporate Liability for Human Rights Violations: The
Future of the Alien Tort Claims Act, 50 Case W. Res. J. Int’l. L.
127, 150 (2018) (“International law does not contain a universal
norm on civil corporate liability . . . .”). As Kiobel explained, leading
academics have concluded that customary international law does
not recognize liability for corporations that violate its norms.
621 F.3d at 143. Even those who favor using the ATS against
corporations acknowledge “the universe of international criminal
law does not reveal any prosecutions of corporations per se.” Id.
at 143-44 (internal quotation marks omitted). Tellingly, when
Kiobel was decided, “most proponents of corporate liability under
customary international law discuss[ed] the subject as merely a
possibility or a goal, rather than an established norm of customary
international law.” Id. at 144 n. 48. That remains true today, with
one scholar speculating that perhaps “the growing trend in legal
systems in Europe, Asia, and South America to incorporate

19
These treaties also underscore the expressed concerns
of the Jesner majority by highlighting the divergence of
views around how different nations understand corporate
liability.
Second, Jesner makes abundantly clear that Sarei
misapplied Sosa in its attempt to draw congressional
support for ATS corporate liability from the language
and legislative history of the ATS itself. See Sarei, 671
F.3d at 747-48. Rather than identifying any congressional
support for its conclusion, Sarei turned Sosa on its head
by concluding that the absence of legislative evidence was
dispositive. See id. at 748 (concluding that there was “no
such legislative history to suggest that corporate liability
was excluded and that only liability of natural persons
was intended”). This reasoning is directly counter to
the analysis applied in Sosa and Jesner, which demand
affirmative expressions of congressional action before
a federal court expands federal ATS jurisdiction. Put
another way, the Ninth Circuit never stopped to consider
why, absent an express affirmative act of Congress,
international law should be different for domestic
corporations as opposed to foreign corporations. As
noted above, the Seventh, Eleventh and D.C. Circuits
reached equally flawed holdings prior to Jesner. This
Court’s review is thus urgently required to prevent the
post-Jesner holding below from unwinding the analysis
enunciated and applied in Sosa and Jesner.
extraterritorial corporate liability for international crimes” will
one day “bring the issue of corporate liability back to the agenda
of the state parties” to the Rome Statute. See Caroline Kaeb,
The Shifting Sands of Corporate Liability Under International
Criminal Law, 49 The Geo. Wash. Int’l. L. Rev. 351, 353-54 (2016).

20
CONCLUSION
For the foregoing reasons, the Cato Institute
respectfully requests that this Court grant certiorari
and reverse the holding below with respect to corporate
liability under the ATS.
Respectfully submitted,
Ilya Shapiro
Cato Institute
1000 Mass. Avenue, N.W.
Washington, DC 20001
(202) 842-0200

October 28, 2019

Owen C. Pell
Counsel of Record
Claire DeLelle
Bryan A. Merryman
Steven A. Levy
White & Case LLP
1221 Avenue of the Americas
New York, NY 10020
(212) 819-8200
opell@whitecase.com

